IN THE
SUPREME COURT OF THE UNITED STATES

 

No:

YAMILET DIAZ,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

Petitioner Yamilet Diaz, pursuant to Sup. Ct. R. 39.1, respectfully moves
this Honorable Court for leave to file the accompanying petition for writ of
certiorari in the Supreme Court of the United States without payment of costs and
to proceed in forma pauperis.

Petitioner previously was found financially unable to obtain counsel, and
the undersigned attorney, since the inception of trial proceedings, has served as

petitioner’s attorney appointed pursuant to the Criminal Justice Act. Therefore, in
reliance upon Rule 39.1 and 18 U.S.C. §3006A et seq., petitioner has not attached

the affidavit which otherwise this Honorable Court would require pursuant to 28

US.C. §1746.

Surfside, Florida
May 9, 2019

      
 

Respectfully submitted, /)
Gs :

in A. Feigenbaum
Counsel for Petitioner Lys Felipe Valencia
Florida Bar No. 705144

P.O. Box 545960

Surfside, Florida 33154

Telephone: (305) 323-4595

Facsimile: (844) 274-0862

Email: miamivicelaw@aol.com

  
